      Securities and Exchange
          Commission
             Office of Inspector General
During the first half of fiscal year 2007, the Office of Inspector
General assisted the Commission in its efforts to:

    - Complete required staff performance management steps
         throughout the Commission in a timely and
         appropriate fashion,

    - Improve the process for providing staff interpretative 

          guidance in the Full Disclosure Program, 


    - Implement procedures to resolve backlogs of Freedom of
          Information Act requests and comment letter postings
          to the Internet,

    - Enhance the integrity of the Commission and its staff by
         investigating allegations of misconduct,

    - Improve information technology security for the Blue
          Sheets and Super Tracking and Reporting systems,

    - Enhance the management of information technology 

         within the Division of Enforcement, 


    -	 Ensure appropriate use and security of the Name 

          Relationship Search Index system, and 


    -	 Further the implementation of the Commission's risk 

        assessment function. 

                                                                                                          PAGE 2




                                   Executive Summary
During this period (October 1, 2006 to March 31, 2007), the Office of Inspector General
(Office) issued four audit reports, two evaluation reports, and one investigative
memorandum on management issues, and completed one survey.
These evaluations focused on management of staff performance in the Division of
Enforcement; information technology (IT) management in the Division of Enforcement; Full
Disclosure interpretive guidance; security evaluations of the Blue Sheets and Super Tracking
and Reporting (STARS) systems; a backlog of requests under the Freedom of Information Act
(FOIA); training and guidance for the Name Relationship Search Inquiry (NRSI) system;
and the Office of Risk Assessment. This work is described in more detail in the Audit
Program section below.
Five investigations were closed during the period.1 Three subjects were referred to the
Department of Justice, which declined prosecution. Five subjects were referred to
Commission management. Two of these subjects (both contractor employees) resigned. Two
other subjects were reprimanded and one was counseled. In addition, two subjects referred
during prior semi-annual periods were suspended, and one subject referred during the prior
period was reprimanded. Two subjects referred during prior semi-annual periods are
awaiting disposition. The Investigative Program section below describes the significant
cases closed during the period.
We are adding a new significant problem, removing one previously reported significant
problem, and retaining another previously reported significant problem.
We are reporting the Commission’s management of staff performance as a new significant
problem, based on our review of the Division of Enforcement’s staff performance
management. In that review, we found that Enforcement did not consistently perform parts
of the performance evaluation process and did not retain performance documentation for the
required amount of time. The Executive Director indicated that the current Commission-
wide staff performance management system needs improvement. The Commission plans to
change its process to address deficiencies in the current system and to better ensure that
required steps of the process are followed.
In its 2006 audit of the Commission’s financial statements, the Government Accountability
Office found no material weaknesses. Based on their findings, we are removing financial
management systems controls as a significant problem.
Our Office has reported information technology (IT) management as a significant problem
for several years. During that time, the Office of Information Technology has taken
numerous steps to improve IT management. Although it remains a significant problem at

1
    Two investigations closed during the prior semi-annual period (April 1, 2006 to September 30, 2006) were
    inadvertently omitted from the semi-annual report for the second half of fiscal year 2006. A subject of one of these
    investigations was referred to the Department of Justice, which declined prosecution.

S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                                          AP R I L 3 0 ,
2007
                                                                                    PAGE 3


this time, we have begun a special project to evaluate whether these steps, taken as a whole,
have corrected this significant problem.
No management decisions were revised during the period. The Office of Inspector General
agrees with all significant management decisions regarding audit recommendations.



                                           Audit Program
During this period, the Office issued four audit reports, two evaluation reports, and one
investigative memorandum on management issues. The Office also completed a survey.
These evaluations are summarized below. Management generally concurred with our
recommendations, and in many cases took corrective actions during the evaluations. A list
of pending evaluations follows the summaries.


IT MANAGEMENT IN ENFORCEMENT (NO. 405)
Our review of the Division of Enforcement’s IT management found that it was generally
adequate. However, the Division needs to issue additional guidance to ensure a sound IT
program. We recommended that the Division prepare an IT plan and document its
procedures for IT management, major initiatives (such as the document imaging project),
and security management.
During our review, the Division and the Office of Administrative Services (OAS) developed
procedures for preventing and resolving physical security incidents at the Division’s
forensics lab.


FULL DISCLOSURE INTERPRETATIVE GUIDANCE (NO. 416)
We reviewed the process for issuing staff interpretive guidance for the Full Disclosure
program. The Division of Corporation Finance and the Office of the Chief Accountant have
primary responsibility for issuing this guidance.
We identified a number of possible improvements to the process. Our recommendations
concern Staff Accounting Bulletins; disclosure of staff guidance; workload, timeliness, and
reporting issues; file documentation; and procedures for responding to guidance requests
and approving speeches.


SYSTEMS SECURITY EVALUATION—BLUE SHEETS (NO. 417)
We issued a task order to Electronic Consulting Services, Inc. (ECS) to evaluate the
security of the Blue Sheets system under the Federal Information Security Management
Act (FISMA). The evaluation found that the Commission significantly improved its


S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                    AP R I L 3 0 ,
2007
                                                                                    PAGE 4


certification and accreditation process in fiscal year 2006 by remedying four of the five
weaknesses we identified during our fiscal year 2005 FISMA evaluation.
We identified no high risk vulnerabilities and nine medium risk vulnerabilities. The
medium risk vulnerabilities concerned the risk assessment report; vulnerability scanning;
the system security plan; system documentation; external interconnections; the plan of
action and milestones; the disaster recovery plan; baseline configuration and inventory; and
configuration change control.
Our overall FISMA evaluation report for fiscal year 2006 contained recommendations to
address most of these vulnerabilities. We made additional recommendations, as
appropriate, in this report. The Office of Information Technology agrees with the findings
and is performing an analysis on how to best implement the recommendations.


OFFICE OF RISK ASSESSMENT (NO. 420)
We surveyed the Office of Risk Assessment (ORA), which was created several years ago to
enhance the Commission’s risk assessment function. During the survey, we gathered
background information about ORA and its activities for audit planning purposes.
Because of the limited objective and scope of our survey, we did not issue a written report or
make any recommendations. We discussed several issues with ORA management,
including the definition of its mission and its resource needs.


FOIA BACKLOG (NO. 422)
The Divisions of Corporation Finance and Investment Management issue comment letters
on filings they receive. Over the last several years, commercial users significantly
increased their Freedom of Information Act (FOIA) requests for these comment letters.
These requests created a large backlog, which we analyzed in this audit.
Besides the influx of requests, we identified several other factors which helped cause the
backlog. These included: management’s decision to post a large number of already issued
letters on the Commission website, which created a separate backlog of letters to be posted;
inefficient processing procedures; and limited staff.
We made several recommendations to the two Divisions and the Commission’s FOIA Office
to improve the efficiency of processing procedures, both for FOIA requests and the posting
of letters on the website. The Divisions and the FOIA Office have taken and plan to take
several steps to address the FOIA backlog.


ENFORCEMENT PERFORMANCE MANAGEMENT (NO. 423)
We reviewed the Division of Enforcement’s compliance with required performance
management procedures. We found that the Division did not consistently perform parts of
the performance appraisal process, especially for new, reassigned and detailed staff. Many
Enforcement managers were not comfortable giving unacceptable ratings to poor
S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                    AP R I L 3 0 ,
2007
                                                                                  PAGE 5


performers and did not consistently retain performance documentation for the required
time. We also found that the Office of Human Resources (OHR) guidance to Commission
managers needed improvement.


We recommended that the Division ensure its supervisors perform all required performance
management steps and that the OHR improve its written guidance and provide additional
training.
Enforcement management suggested that our findings were typical of the Commission as a
whole. The Commission’s Executive Director indicated that the current performance
management program needs significant improvements. Starting in fiscal year 2008, the
Commission will adopt a new program to address the deficiencies.
Because the Commission-wide staff performance management system is ineffective, we
consider it to be a significant problem (see below).


SYSTEMS SECURITY EVALUATION—STARS (NO. 424)
In addition to the Blue Sheets security evaluation (see above), we issued a task order to
Electronic Consulting Services, Inc. (ECS) to evaluate the security of the Super Tracking
and Reporting System (STARS).
We identified one high risk deficiency (a significant vulnerability requiring immediate
action) within STARS: the need to encrypt data while in transit. We also found eight
medium risk vulnerabilities (significant deficiencies requiring timely action).
 The medium risk vulnerabilities concerned the STARS security categorization; the risk
assessment report; the system security plan; system documentation; the plan of action and
milestones; the disaster recovery plan; baseline configuration and inventory; and
configuration change control. As appropriate, we made recommendations to address these
vulnerabilities. The Office of Information Technology agrees with the findings and is
performing an analysis on how to best implement the recommendations.


NRSI TRAINING AND WARNING (NOS. G-442/433)
Commission staff use the Name Relationship Search Index (NRSI) system to research all of
the relationships that companies or individuals have had with the Commission. During two
Office investigations (OIG-442 and OIG-433), we identified a need to improve user training
on NRSI to help prevent inappropriate use of the system. We also found that the warning
on the NRSI login screen does not inform employees that the NRSI database is to be used
only for official purposes.
We recommended improving NRSI training and appropriately modifying the warning on
the NRSI login screen.




S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                  AP R I L 3 0 ,
2007
                                                                                                         PAGE 6


PENDING EVALUATIONS
The following evaluations were pending at the close of the semi-annual period (March 31,
2007):
No. 421 Investment Company Filing Initiatives
No. 427 DynCorp Contract—Detailed Review
No. 428 Document Imaging
No. 429 XBRL Survey
No. 430 Contract Ratifications
No. 431 IT Management Significant Problem
No. 432 Receiver Oversight



                                     Investigative Program
Five investigations were closed during the period. Three subjects were referred to the
Department of Justice, which declined prosecution. Five subjects were referred to
Commission management. Two of these subjects (both contractor employees) resigned.
Two other subjects were reprimanded and one was counseled. In addition, two subjects
referred during prior semi-annual periods were suspended, and one subject referred during
the prior period was reprimanded. Two subjects referred during prior semi-annual periods
are awaiting disposition.
The most significant cases closed during the period, as well as a case closed during the prior
period,2 are described below.


THEFT OF GOVERNMENT INFORMATION
An Office investigation developed evidence that an employee who left the Commission took
large quantities of non-public Commission information and loaded it onto his new
employer’s computer system. The non-public Commission information was returned, and
the Department of Justice declined prosecution.


CONTRACTOR FRAUD
The Office investigated allegations that a Commission contractor was billing for non
existent employees, billing more than once for the same work, and offering bonuses to staff
to take longer to complete work. The evidence developed during the investigation failed to
substantiate the allegations.

2
     As mentioned in footnote 1 above, two cases closed during the prior semi-annual period were inadvertently omitted
    from our last semi-annual report.
S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                                         AP R I L 3 0 ,
2007
                                                                                   PAGE 7


MISUSE OF DATABASE
An Office investigation disclosed that a staff member had searched a non-public
Commission database for information unrelated to the employee’s job responsibilities. We
found no evidence, however, that the employee had released non-public information to
unauthorized persons. Management counseled the employee about proper use of the
database.


FAILURE TO REPORT SECURITIES TRANSACTIONS
The Office investigated an allegation that a staff member had used his position at the
Commission to assist a relative with selling securities. Our investigation disclosed no
evidence of misuse of position to assist the relative. However, we did find evidence that the
employee failed to report investments as required by a Commission rule, failed to consider
the potential for the appearance of a conflict of interest, and exhibited a possible lack of
candor. The employee was reprimanded and required to attend ethics counseling and
training.


MISUSE OF COMPUTER RESOURCES AND FALSE STATEMENTS
An Office investigation developed evidence that three contractor employees had misused
Commission computer resources to support a personal computer business. We also found
evidence that the employees made false statements about these activities, and that one of
the employees had previously lied to the agency about his arrest record. Our investigation
did not find evidence that the employees had sold any used Commission hardware or
software through their computer business, and the Department of Justice declined
prosecution. Two of the employees resigned, and the contractor reprimanded the third
employee.



                                     Significant Problems

STAFF PERFORMANCE MANAGEMENT
This period, the Office identified a significant problem with the Commission’s staff
performance management system, based on audit work conducted in the Division of
Enforcement (see Audit No. 423 above).
Although the audit scope was limited to the Division of Enforcement, the Executive
Director agreed that the Commission-wide staff performance management program needs
significant improvement. The Commission plans to adopt a new performance management
program to address the deficiencies, starting in fiscal year 2008.


S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                   AP R I L 3 0 ,
2007
                                                                                   PAGE 8


Because the Commission-wide staff performance management system is ineffective, we
consider it to be a significant problem.




           Significant Problems Identified Previously

FINANCIAL MANAGEMENT SYSTEMS CONTROLS
An OIG contractor completed an audit of Commission financial management systems
controls during a prior period (Audit No. 362). The audit found that Commission financial
management controls for fiscal year 2002 were effective in all material respects, based on
criteria established under the Federal Managers Financial Integrity Act, except for three
material weaknesses and one material non-conformance.
The exceptions concerned property accountability, accounting and control of disgorgements,
information system and security program controls, and the Disgorgement and Penalties
Tracking System. We reported that, taken together, these financial management
exceptions were a significant problem for the Commission. Management concurred with
our recommendations to strengthen these financial controls, and promptly began to take
actions to correct the weaknesses.
The Government Accountability Office (GAO) performed the audit of the Commission’s
financial statements for fiscal years 2004 and 2005. The audits found that the Commission
has made significant progress in building a financial reporting structure for preparing
financial statements for audit.
GAO also found that the SEC property account balance was below the threshold for
materiality; as a consequence we had previously removed property accountability as an
element of this significant problem. However, GAO identified material internal control
weaknesses in preparing financial statements and related disclosures, recording and
reporting disgorgements and penalties, and information security, which became the basis
for this significant problem.
During its audit of the Commission’s fiscal year 2006 financial statements, GAO indicated
that it no longer considers the weaknesses in financial reporting, disgorgements and
penalties, and information security to be material, based on the corrective actions taken by
the Commission. Accordingly, we are removing financial management systems controls as
a significant problem.


INFORMATION TECHNOLOGY MANAGEMENT
Since April 1996, we have reported information technology (IT) management as a
significant problem based on weaknesses identified by several audits, investigations, and
management studies. Significant IT management weaknesses included information

S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                   AP R I L 3 0 ,
2007
                                                                                    PAGE 9


systems security; IT capital investment decision-making; administration of IT contracts; IT
project management; enterprise architecture management; strategic management of IT
human capital; and management of software licenses.
We no longer consider information systems security to be an element of this significant
problem, based on our fiscal year 2006 FISMA evaluation and GAO’s audit of the
Commission’s fiscal year 2006 financial statements. The Office of Information Technology
(OIT) indicated that it has continued to strengthen IT management during this reporting
period and expects it will no longer be a significant problem by the end of fiscal year 2007.
We have begun a special project to evaluate whether the progress made by OIT in
strengthening IT management is sufficient to warrant removing it as a significant problem.



                                    Access to Information
The Office of Inspector General has received access to all information required to carry out
its activities. No reports to the Chairman, concerning refusal of such information, were
made during the period.



                                              Other Matters

EXTERNAL COORDINATION
The Office actively participates in the activities of the Executive Council on Integrity and
Efficiency (ECIE). The Inspector General attends ECIE meetings, is an active member of
its Financial Institutions Regulatory Committee, and serves as the ECIE member on the
Integrity Committee (established by Executive Order No. 12993).
The Deputy Inspector General is an active member of the Federal Audit Executive Council
(FAEC). The FAEC considers audit issues relevant to the Inspector General community.
The Counsel to the Inspector General is the Vice-Chair of the PCIE Council of Counsels; the
Associate Counsel is an active member. The Council considers legal issues relevant to the
Inspector General community.


REVIEW OF LEGISLATION AND REGULATIONS
The Office reviewed legislation and proposed and final rules relating to the programs and
operations of the Commission, pursuant to the Inspector General Act. We tracked both
legislation and regulations by researching relevant documents and databases, including
lists prepared by the IG community and the Commission's Office of General Counsel. Our
independent assessments focused on the impact of the legislation or rule on the economy
and efficiency of, and the prevention and detection of fraud and abuse in, programs and
S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                    AP R I L 3 0 ,
2007
                                                                                  PAGE 10


operations administered by the Commission. In addition, we reviewed statutes and
regulations within the context of audits and investigations (e.g., the impact of the Federal
Information Security Management Act on Commission operations).
In conjunction with the Legislation Committee of the PCIE/ECIE, we also reviewed
legislation and rules that would have an impact on the Inspector General community. We
provided comments to the PCIE Legislation Committee on the “Accountability in
Government Contracting Act of 2007.”




S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                    AP R I L 3 0 ,
2007
                                                                                   PAGE 11




                                       Questioned Costs

                                                                            DOLLAR VALUE
                                                                          (IN THOUSANDS)


                                                                       UNSUPPORTED       QUESTIONED
                                                              NUMBER      COSTS            COSTS
A          For which no management decision
           has been made by the
           commencement of the reporting                        0           0                    0
           period

B          Which were issued during the
           reporting period
                                                                0           0                    0

           Subtotals (A+B)                                      0           0                    0

C          For which a management decision                      0           0                    0
           was made during the reporting
           period

    (i)    Dollar value of disallowed costs                     0           0                    0

    (ii)   Dollar value of costs not                            0          0                     0
           disallowed

D          For which no management                              0          0                     0
           decision has been made by the end
           of the period

           Reports for which no management                      0          0                     0
           decision was made within six
           months of issuance




S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                     AP R I L 3 0 ,
2007
                                                                                    PAGE 12




              Recommendations That Funds Be Put To
                        Better Use
                                                                          DOLLAR VALUE
                                                                NUMBER   (IN THOUSANDS)
A	           For which no management decision
             has been made by the commencement
                                                                  0             0
             of the reporting period
B	           Which were issued during the
             reporting period
                                                                   0            0


             Subtotals (A+B)            	                          0            0
C	           For which a management decision                      0             0
             was made during the period
      (i) 	 Dollar value of recommendations that                  0             0
            were agreed to by management
         -	 Based on proposed management                          0             0
            action
         -	 Based on proposed legislative action                  0             0
      (ii) 	 Dollar value of recommendations that                 0             0
             were not agreed to by management
D	           For which no management decision
             has been made by the end of the
                                                                  0             0
             reporting period
             Reports for which no management
             decision was made within six months
                                                                  0             0
             of issuance




S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N 	                  AP R I L 3 0 ,
2007
                                                                              PAGE 13




           Reports with No Management Decisions
Management decisions have been made on all audit reports issued before the beginning of
this reporting period (October 1, 2006).



                     Revised Management Decisions
No management decisions were revised during the period.



          Agreement with Significant Management 

                        Decisions

The Office of Inspector General agrees with all significant management decisions regarding
audit recommendations.




S E C U R I T I E S AN D E X C H AN G E C O M M I S S I O N                AP R I L 3 0 ,
2007
                       MANAGEMENT RESPONSE OF 

               THE SECURITIES AND EXCHANGE COMMISSION 

     ACCOMPANYING THE SEMIANNUAL REPORT OF THE INSPECTOR GENERAL 

          FOR THE PERIOD OCTOBER 1, 2006 THROUGH MARCH 31, 2007 



Introduction

The Semiannual Report of the Inspector General of the Securities and Exchange Commission
(SEC) was submitted to the Chairman on April 30, 2007 as required by the Inspector General
Act of 1978, as amended. The report has been reviewed by a member of the Executive Staff, as
well as the Executive Director, General Counsel, and Director of the Division of Enforcement.
The Management Response is based on their views and consultation with the Chairman.

The Management Response is divided into four sections to reflect the specific requirements
listed in Section 5(b) of the Inspector General Act of 1978, as amended.

                                        Section I                                                  

                   Comments Keyed to Significant Sections of the IG Report 


A.   Audit Program

     During the reporting period, the Office of Inspector General (OIG) issued four audit
     reports, two evaluation reports, and one investigative memorandum on management issues.
     Management generally concurred with the findings and recommendations in the OIG’s
     reports.

     In addition to audits performed by the OIG, the Government Accountability Office (GAO)
     actively reviewed program and administrative functions of the SEC. A complete listing of
     all GAO audit activity involving the SEC is attached as Appendix A.

B.   Response to Significant Problems

     Performance Management System

     The OIG identified the Commission’s staff performance management system as a new
     significant problem. Agency management has recognized for some time that the current
     pay for performance process needs significant improvements and initiated negotiations at
     the earliest possible date to affect such improvements. Due to the government-wide efforts
     regarding pay for performance, the national unions that represent federal employees have
     made this a priority area for negotiations. In the case of the SEC, those negotiations took
     nearly 18 months and went through mediation and ultimately the review of the Federal
     Services Impasse Panel (FSIP). During the course of the negotiations and the panel
     deliberations, the SEC was prohibited from making any changes to the system. The SEC
     recently received a favorable opinion from the FSIP and the process of implementing the
     decision has begun.
     A pilot program is ongoing in the Office of Human Resources under which staff members
     are rated on a five-level system. Most importantly, it provides training and guidance that is
     far more extensive than the current system. It also supports automation which creates
     enhanced visibility. This new program addresses many issues raised by the OIG, and is
     expected to be adopted throughout the Commission starting in fiscal year 2008.

     An additional outcome of the FSIP decision is that the Senior Officer (SO) performance
     plans will be structured and managed in the same way as the “SK” plans, which will reduce
     the difficulties associated with maintaining two different systems. The “SK” performance
     cycle will also adjust to a fiscal year basis, which will bring it into alignment with the SO
     system.

C.   Response to Significant Problems Previously Identified

     Information Resources Management

     During this reporting period, the Office of Information Technology (OIT) continued to
     aggressively establish, implement, and enforce IT management policies and controls to
     strengthen the overall effectiveness of the SEC’s Information Resources Management
     Program. Particular emphasis continues to be placed on implementing the OIG’s and the
     GAO’s recommended improvements in such areas as IT security, capital investment
     decision-making, administration of IT contracts, IT project management, enterprise
     architecture management, the strategic management of IT human capital, and the
     management of software licenses.

     The SEC has placed a particular focus on improving information security over the last 12
     months, which resulted in the GAO downgrading the issue from a material weakness to a
     reportable condition in the agency’s Performance and Accountability Report. Because of
     the ever-changing nature of information security threats, however, IT security continues to
     be a priority in order to ensure the secure operation of the SEC’s information technology
     infrastructure, and the dependable delivery of services to the public.

     OIT also has made significant progress in other areas, such as capital planning and
     investment control. For example, the Chief Information Officer initiated monthly project
     status meetings to review and discuss all development, modernization, and enhancement IT
     initiatives to ensure that baseline budgets and schedules remain on target, and that
     corrective actions are initiated as required. Also, OIT improved project closeout reporting
     and initiated a pilot database to serve as a repository to capture and analyze lessons learned
     to facilitate improvements and enhancements to the SEC’s capital planning and investment
     control processes. In addition, OIT initiated an IT workforce evaluation, which is being
     used to identify IT skill and proficiency gaps. The results of the analysis will be used to
     enhance proficiency and core competencies and skills. OIT and OIG are now undertaking
     an assessment of OIT’s progress in eliminating the issues historically identified by the
                                                2

    OIG; this joint assessment will be completed by calendar year-end.

D. 	 IG Recommendations Concerning Use of Funds

    None.

E. 	 Reports with No Management Decisions

    Management decisions have been made on all audits issued prior to the beginning of the
    reporting period (October 1, 2006).

F. 	 Revised Management Decisions

    No management decisions were revised during the reporting period.




                                             3

SEC Management Response to
Semiannual IG Report
October 1, 2006 – March 31, 2007


                                           SECTION II                                 

                                        Disallowed Costs                              

                                       As of March 31, 2007 



                                                                     Dollar Value
                                                            Number   (in thousands)

A. 	   For which final action has
       not been taken by the
       commencement of the
       reporting period                                         0           $0

B. 	   On which management decisions
       were made during the reporting
       period                                                   0           $0

       (Subtotal A+B)        	                                  0           $0

C. 	   For which final action was
       taken during the reporting
       period                                                   0           $0

       (i)    Recovered by management 	                         0           $0

       (ii)   Disallowed by management                          0	          $0

D. 	   For which no final action has
       been taken by the end of the
       reporting period                                         0           $0




                                                4

SEC Management Response to
Semiannual IG Report
October 1, 2006 – March 31, 2007


                                           SECTION III                               

                                      Funds Put to Better Use 

                                       As of March 31, 2007 



                                                                    Dollar Value
                                                           Number   (in thousands)

A. 	   For which final action has
       not been taken by the
       commencement of the
       reporting period                                      0             $0

B. 	   On which management decisions
       were made during the reporting
       period                                                0             $0

C. 	   For which final action was
       taken during the reporting
       period:

       (i) 	    Dollar value of recom
                mendations that were
                agreed to by management                      0             $0

       (ii) 	   Dollar value of recom
                mendations that management
                has subsequently concluded
                should/could not be
                implemented or completed                     0             $0

D. 	   For which no final action has been
       taken by the end of the reporting period              0             $0




                                                  5

                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 2006 – March 31, 2007

                                                         SECTION IV                                                                  

                                             Open Audit Reports Over One Year Old 

                                                    As of March 31, 2007 



                                                  Funds Put to
                                                  Better Use            Questioned Costs
Audit #   Audit Title               Issued        (in thousands)         (in thousands)    Reason Final Action Not Taken

220 	     IRM Planning and
          Execution                 3/26/1996        $0                       $0           A major initiative is underway to publish
                                                                                           all remaining IT-related policies in 2007.
                                                                                           This initiative will address all aspects of
                                                                                           policy related to IT management.

320 	     General Computer Controls 12/26/2000       $0                       $0           The overall recommendation is centered
                                                                                           around the on-boarding and off-boarding
                                                                                           of staff and contractors. A pilot system
                                                                                           has been put into production, and full
                                                                                           deployment is being coordinated with
                                                                                           the HSPD-12 government-wide initiative.

337 	     IT Project Management     1/24/2002        $0                       $0           Remaining actions require completion of
                                                                                           formal policies.



                                                                   6

                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 2006 – March 31, 2007

                                                         SECTION IV                                                                    

                                             Open Audit Reports Over One Year Old 

                                                    As of March 31, 2007 



                                                  Funds Put to
                                                  Better Use            Questioned Costs
Audit #   Audit Title               Issued        (in thousands)        (in thousands)         Reason Final Action Not Taken

365	      IT Capital Investment
          Decision-making Follow-up 3/29/2004        $0                       $0               The IT Capital Planning Committee has
                                                                                               been operating under the terms of a draft
                                                                                               charter since late 2004. A revised draft
                                                                                               charter is under review due to a change in
                                                                                               the Committee’s procedures.

371	      Small Business Reg D
          Exemption Process         3/31/2004        $0                       $0               The two remaining recommendations
                                                                                               are being addressed as part of a rule-
                                                                                               making initiative. A process has been
                                                                                               worked out to coordinate development
                                                                                               of the rule proposals with state securities
                                                                                               regulators.

376 	     Telephone Card Program    11/17/2003       $0                       $0               See explanation for audit #220.


                                                                   7

                                                                                        SEC Management Response to
                                                                                        Semiannual IG Report
                                                                                        October 1, 2006 – March 31, 2007


                                                        SECTION IV                                                                 

                                            Open Audit Reports Over One Year Old 

                                                   As of March 31, 2007 



                                              Funds Put to
                                              Better Use            Questioned Costs
Audit #   Audit Title           Issued        (in thousands)         (in thousands)    Reason Final Action Not Taken

377	      Lost and Stolen
          Securities Program    3/31/2004         $0                      $0           Management is exploring the possibility
                                                                                       of conducting a full risk assessment
                                                                                       of the program’s database.

393 	     Software Management   3/24/2005         $0                      $0           An interim policy has been issued
                                                                                       that assigns responsibilities for
                                                                                       management of software licenses. A
                                                                                       working group has been established to
                                                                                       develop specific procedures recommended
                                                                                       in the audit report. In addition, work is
                                                                                       underway to identify performance
                                                                                       metrics for monitoring and follow-up
                                                                                       on software licensing information.



                                                               8

                                                                                               SEC Management Response to
                                                                                               Semiannual IG Report
                                                                                               October 1, 2006 – March 31, 2007

                                                             SECTION IV                                                                  

                                                 Open Audit Reports Over One Year Old 

                                                        As of March 31, 2007 



                                                      Funds Put to
                                                      Better Use            Questioned Costs
Audit #   Audit Title                   Issued        (in thousands)         (in thousands)     Reason Final Action Not Taken

394       Targeting B/D Compliance
           Examinations                 9/22/2005        $0                       $0            Most of the recommendations have been
                                                                                                implemented. Planning is underway to
                                                                                                make certain data more widely available to
                                                                                                SEC staff as the agency moves ahead with
                                                                                                enterprise architecture.

395	      Integrity Program—
          Inspection of Field Offices   5/31/2005        $0                       $0            Revisions are expected to be made to
                                                                                                the draft employee handbook.

399       Government Performance
          And Results Act—2004          9/27/2005        $0                       $0            Efforts are underway to review activity-
                                                                                                based costing data and to revise or generate
                                                                                                new performance measures.



                                                                       9

                                                                                            SEC Management Response to
                                                                                            Semiannual IG Report
                                                                                            October 1, 2006 – March 31, 2007

                                                         SECTION IV                                                                  

                                             Open Audit Reports Over One Year Old 

                                                    As of March 31, 2007 



                                                  Funds Put to
                                                  Better Use             Questioned Costs
Audit #   Audit Title               Issued        (in thousands)           (in thousands)    Reason Final Action Not Taken

402       Office of the Secretary   9/20/2005        $0                        $0            The Library is conducting a needs
                                                                                             assessment to determine SEC staff
                                                                                             information requirements. The survey
                                                                                             results will help determine how to meet the
                                                                                             OIG’s audit recommendations.

406       Federal Information 

           Security Management 

          Act—2005                  9/28/2005        $0                        $0 
          Most of the recommendations have been
                                                                                             implemented. With regard to the one
                                                                                             remaining recommendation, Privacy Impact
                                                                                             Assessments are underway for all
                                                                                             applications with an expected completion
                                                                                             of March 2008.




                                                                   10

                                                                                           SEC Management Response to
                                                                                           Semiannual IG Report
                                                                                           October 1, 2006 – March 31, 2007

                                                        SECTION IV                                                                   

                                            Open Audit Reports Over One Year Old 

                                                   As of March 31, 2007 



                                                 Funds Put to
                                                 Better Use             Questioned Costs
Audit #   Audit Title              Issued        (in thousands)           (in thousands)    Reason Final Action Not Taken

409	      Certification and
          Accreditation of ACTS+   9/30/2005        $0                        $0            The certification and accreditation process
                                                                                            was recently updated and the system’s
                                                                                            security and disaster recovery plans are
                                                                                            being modified. The expected completion
                                                                                            date is June 2007.

PI-6-17   Workplace Violence
          Prevention Program       3/27/2006        $0                        $0            An updated policy is being drafted.
                                                                                            After the policy is approved and
                                                                                            communicated to staff, training
                                                                                            sessions will commence.




                                                                  11

                                                                     APPENDIX A


                         Government Accountability Office Audit Activity 

                        Involving the Securities and Exchange Commission 



Reports Issued During the Reporting Period

  1. 	 Private Pensions: Changes Needed to Provide 401(k) Plan Participants and the 

       Department of Labor Better Information on Fees (GAO-07-21, November 2006) 


  2.	   Employee Benefits Security Administration: Enforcement Improvements Made but 

        Additional Actions Could Further Enhance Pension Plan Oversight (GAO-07-22, 

        January 2007) 


  3.	   Corporate Governance: NCUA’s Controls and Related Procedures for Board
        Independence and Objectivity Are Similar to Other Financial Regulators, but
        Opportunities Exist to Enhance Its Governance Structure (GAO-07-72R, November
        30, 2006)

  4.	   Risk-based Capital: Bank Regulators Need to Improve Transparency and Overcome
        Impediments to Finalizing the Proposed Basel II Framework (GAO-07-253, February
        2007)

  5.	   Financial Market Regulation: Agencies Engaged in Consolidated Supervision Can
        Strengthen Performance Management and Collaboration (GAO-07-154, March 2007)

  6.	   Information Security: Sustained Progress Needed to Strengthen Controls at the 

        Securities and Exchange Commission (GAO-07-257, March 27, 2007) 



Projects Active as of March 31, 2007

1. 	    SEC Enforcement Actions (250322). A review of the operations of the SEC’s
        Division of Enforcement.

2. 	    SEC Oversight of SROs (250326). A review of the SEC oversight of self-regulatory
        organizations and its inspection and examination process.

3. 	    Institution Diversity and Consolidation (250328). A study regarding the diversity
        and complexity of the banking and financial services industries, the current
        regulatory structure for these industries, and the costs associated with regulatory
        compliance.

4. 	    Competition in the Accounting Profession (250321). An examination of recent
        changes in the market for public company auditors, recent changes in the level of
       competition in the market and auditor choices for public companies, trends in audit
       costs and quality, the impact of concerns over access to capital formation and
       securities markets on companies’ choice of auditors, and challenges faced by mid-
       sized and smaller auditing firms in serving the market for audit and other services to
       public companies.

5. 	   Hedge Funds and SEC Oversight (250313). A review of the evolution of the hedge
       fund industry in terms of growth, investment strategies and fee structures; SEC
       oversight of hedge funds and financial regulators’ oversight of counterparties;
       disclosure requirements; potential implications of ERISA amendments related to
       hedge funds; and the applicability of legislative reforms suggested by the President’s
       Working Group after Long Term Capital Management.

6. 	   SEC Oversight of Corporate Governance Ratings (250312). A review of the SEC’s
       oversight of firms that provide proxy advisory services and corporate governance
       ratings.

7.     	 redit Derivatives (250310). A review of the use of information technology systems
       C
       in the credit derivatives markets.

8. 	 Pay and Performance Systems (450460/450492). A review of pay and performance
     systems at the SEC and other federal financial regulatory agencies.

9. 	 Financial Markets Preparation Follow-on (250285). A review of the progress made
     by U.S. financial regulators and market participants to increase their security and
     resiliency against attacks or other disasters, as well as to follow-up on issues and
     recommendations made from GAO’s prior reports.

10. 	 Financial Statement Audit (194571). An audit of the SEC’s 2006 financial
      statements.

11.    	 tility Oversight (360719). A study of FERC’s efforts to assume responsibilities for
       U
       protecting consumers and investors previously under the jurisdiction of the SEC.

12.    E
       	 nergy Futures (250256) and Natural Gas Prices (360659). The first assignment is a
       review of the CFTC’s oversight of futures trading in energy. The second assignment
       is a review of the factors that affect natural gas price volatility and the Federal
       Government’s role in ensuring that prices are determined in a competitive market.
       GAO’s discussions with SEC concern the SEC’s equities market surveillance, staff
       report entitled, “Implications of the Growth of Hedge Funds in September 2003,” and
       how the role played by hedge funds in the financial markets has changed.




                                              2

